UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-7799

RONALD BROUNT, a/k/a Ronald Brunt,
Petitioner - Appellant,
v.
BRIAN E. FROSH, Attorney General of State of Maryland,
Respondent - Appellee.

Appeal from the United States District Court for the District of Maryland, at Greenbelt.
Paul W. Grimm, District Judge. (8:17-cv-01465-PWG)
Decided: May 21, 2020

Submitted: May 19, 2020

Before NIEMEYER, HARRIS, and RICHARDSON, Circuit Judges.
Dismissed by unpublished per curiam opinion.
Ronald Brount, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

la

PER CURIAM:
Ronald Brount seeks to appeal the district court’s orders denying relief on his 28
U.S.C. § 2254 (2018) petition and denying reconsideration. The orders are not appealable
unless a circuit justice or judge issues a certificate of appealability. See 28 U.S.C.
§ 2253(c)(1)(A) (2018). A certificate of appealability will not issue absent “a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2) (2018). When the
district court denies relief on the merits, a prisoner satisfies this standard by demonstrating
that reasonable jurists could find the district court’s assessment of the constitutional claims
debatable or wrong. .See Buck v. Davis, 137 S. Ct. 759, 773-74 (2017). When the district
court denies relief on procedural grounds, the prisoner must demonstrate both that the
dispositive procedural ruling is debatable and that the petition states a debatable claim of
the denial of a constitutional right. Gonzalezv. Thaler, 565 U.S. 134,140-41 (2012) (citing
Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Brount has not made
the requisite showing. Accordingly, we deny a certificate of appealability, deny leave to
proceed in forma pauperis, and dismiss the appeal. We dispense with oral argument
because the facts and legal contentions are adequately presented in the materials before this
court and argument would not aid the decisional process.
DISMISSED

2

h
Case 8:17-cv-

"15-PWG Document 19 Filed-ll/C

Page 1 of 10

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
*■

RONALD BROUNT, #1166464
a/k/a RONALD BRUNT

■*

Petitioner

*

Civil Action No. PWG-17-1465

v

THE ATTORNEY GENERAL OF THE
STATE OF MARYLAN D
Respondent

*

*#*

MEMORANDUM OPINION
In this Petition for a Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254, Ronald Brount
challenges his state convictions for first degree rape, first degree sexual offense (two counts) and

0

burglary. ECF No. I,1 Respondent filed an Answer seeking dismissal of the Petition on the
grounds of untimeliness2 and procedural default. ECF No. 9. Brount filed a Reply. ECF No. 11.
Brount subsequently filed a “Motion to Correct” to add additional exhibits to address the timeliness
of the Petition,3 which will be granted. ECF No. 15. Having reviewed the submitted materials,
the Court finds that no hearing is necessary. See Local R. 105.6 (D. Md. 2018); Rule 8, Rules
Governing Section 2254 Proceedings in the United States District Courts; see Fisher v. Lee, 215

6

1 Brount is incarcerated in Virginia. This Petition was initially filed in the United States District Court for the Western
District of Virginia, Roanoke Division, which transferred the case to the District of Maryland. ECF No. 2; ECF No.
9-9 at 12.
2 Brount’s Petition is timely filed consonant with the decision in Mitchell v. Green, 922 F.3d 187 (4th Cir. 2019)
(holding the one-year limitations for filing a petition under § 2254 was tolled during the pendency of a Motion for a
Reduction of Sentence in a Maryland court under Maryland Rule 4-345). See infra note 4.
3 Brount moves to add three exhibits and a memorandum to the record. (ECF Nos. 15-2,15-3, 15-4, 15-5). He asserts
these exhibits were mailed to the Court on November 15, 2018, but not filed. There is no record these documents
were ever received by the Clerk. The Motion will be granted.

Case 8:17-cv-

©

5-PWG Document 19 Filed 11/f

1 Page 3 of 10

have to pick one or the other.” Id. at 7. Brount elected to be represented by the Office of the
Public Defender. Id.
On March 23,2012, Brount, now represented by an assistant public defender, made a third
appearance before the Circuit Court. ECF No. 9-9 at 4. Brount explained he wanted to represent
himself and for the court to appoint a different attorney to assist him. To this end, he filed a pro
se Motion for Substitution of Counsel which the court denied as meritless. Id. at 10-11,16; ECF
No. 9-2 at 11. The court again informed Brount that he did not have the option of representing
himself with the assistance of appointed counsel; rather, Brount could proceed with representation
from the Public Defender's Office, retain another attorney at his own expense, or represent himself.
ECF No. 9-9 at 7-8, 11, 13, 15-17. After further inquiry from the court, Brount declined to
represent himself without the appointment of counsel to assist him with his self-representation. Id.

©

Brount was represented by counsel from the Public Defender’s Office at trial. On April
26,2012, after a three-day trial, a jury returned a verdict finding Brount guilty of all charges. On
June 6,2012, the Court sentenced Brount to twenty years of imprisonment for burglary, and three
concurrent life sentences, one for each sex offense conviction. ECF No. 9 at 1-2; ECF No. 1 -2.
Procedural History
Brount, by his counsel, raised the following claims on direct appeal: (1) was the evidence
legally sufficient to support first degree sexual offense; (2) did the trial court err in denying his
request for hybrid representation; (3) did the trial court err in admitting video testimony in violation
of his right to confront a witness; (4) did the trial court err by allowing the State to present evidence
that the DNA analysis produced a “sperm fraction” and a “non-sperm fraction” where there was
no evidence confirming the presence of sperm in the sample. ECF Nos. 9-3; 9-4; ECF 1-1. The

©

3

JS<X.

Case 8:17-cv-(

Q

5-PWG Document 19 Filed 11/C

Page 4 of 10

Court of Special Appeals of Maryland affirmed Brount * s j udgment of conviction in an unpublished
opinion entered on October 14, 2014. Brount v. State of Maryland, 109 A.3d 665 (Table)
(February 23,2015); see also ECF No. 9-5.4
On February 23, 2015, the Court of Appeals of Maryland denied Brount’s request for
further review. Brount v. State ofMaryland, Petition Docket No. 537 (Sept. Term, 2014); see also
ECF No. 9-6 at 32.
On March 7,2016, Brount filed a Petition for Post Conviction Relief in the Circuit Court
for Montgomery County. ECF No 1 at 3; ECF No, 1-2. He presented three claims of error; (1) he
was denied his constitutional right to conduct his own defense; (2) he was denied his constitutional
right to the effective assistance of counsel in connection with his efforts to exercise his right to
self-representation; and (3) he was denied his constitutional right to effective assistance of
appellate counsel for failure to argue that Brount was denied his right to conduct his own defense
at trial. ECF No. 1-1; ECF No. 1-2.
On August 26, 2016, the Circuit Court held a hearing on the Petition and on October 11,
2016, found that Brount had waived his right to self-representation and that neither trial nor
appellate counsel rendered ineffective assistance. ECF 1-2 at 8-10. The court denied postconviction relief as to all claims. Id at 9-10.

4 Brount also filed a Motion for Reconsideration and an Application for Sentence Review. ECF No. 9-2 at 21. On
July 7,2015, the sentence review panel issued an order leaving the sentence unchanged. Id. at 24. Brount’s Motion
for Reconsideration of his Sentence expired by operation of law on June 6,2017. See Md. Rule 4-345(e) (providing
a court may not revise a sentence after five years from the date the sentence was originally imposed). Pursuant to the
holding in Mitchell v. Green, 922 F.3d 187 (4th Cir. 2019) (holding the one-year limitations for filing a petition under
§ 2254 was tolled during the pendency of a Motion for a Reduction of Sentence in a Maryland court under Maryland
Rule 4-345), Brount’s Motion for Reconsideration tolled the running of the one-year limitations period so that the
Petition is timely filed. See ECF No. 9 at 12 n. 2 (acknowledging that if Brount’s Motion for Reconsideration of
Sentence tolled the limitations period under 28 U.S.C. § 2244(d)(2), then the Petition is timely).

O

4

Case 8:17-cv-i

o

5-PWG Document 19 Filed 11/f

l Page 5 of 10

On January 3, 2017, the Court of Special Appeals dismissed Brount’s Application for
Leave to Appeal the denial of post-conviction relief as untimely filed. Brount filed the Application
more than 30 days after the Circuit Court’s entry of its October 11, 2016 order denying relief,
depriving the appellate court of jurisdiction under Maryland Rule 8-204(b)(3)(A) (application for
leave to appeal must be filed within thirty days after entry of judgment). Keys v. State, 195 Md.
App. 19,27-28 (2010) (30-day time limit is jurisdictional). ECF No. 1-2 at 11.
Brount filed this Petition in the United States District Court for the Western District of
Virginia on May 25, 2017, and it was transferred to the District of Maryland on May 31, 2017.
CLAIMS PRESENTED
Brount advances the following claims of error in support of his Petition for federal habeas
relief: (1) he was denied his right to self-representation on the basis of trial court error; (2) he

o

received ineffective assistance of counsel; and (3) he received ineffective assistance of appellate
counsel. ECF No. 1 at 5, ECF No. 1-1.
DISCUSSION
Legal Standard
The habeas statute provides that a district court “shall entertain an application for a writ of
habeas corpus on behalf of a person in custody pursuant to the judgment of a State court only on
the ground that he is in custody in violation of the Constitution or laws or treaties of the United
States.” 28 U.S.C. § 2254(a).
The statutory framework of the federal habeas statute sets forth a “highly deferential
standard for evaluating state-court rulings.” Lindh v. Murphy, 521 U.S. 320, 333 n. 7 (1997); see
also Bell v. Cone, 543 U.S. 447, 455 (2005). The standard is “difficult to meet,” and requires

©

5

7^

Case 8:17-cv-t

O

5-PWG Document 19 Filed 11/C

Page 6 of 10

courts to give state-court decisions “the benefit of the doubt.” Cullenv,Jtinholster, 563 U.S, 170,
181 (2011) (internal quotation marks and citations omitted); see also Harrington v. Richter,^ 562
U.S. 86,102 (2011) (“If this standard is difficult to meet, that is because it was meant to be.”). A
federal court may not grant a writ of habeas corpus unless the state’s adjudication on the merits:
I) “resulted in a decision that was contrary to, or involved an unreasonable application of, clearly
established federal law, as determined by the Supreme Court of the United States,” or 2) “resulted
in a decision that was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.” 28 U.S.C. § 2254(d).
Procedural Default
Before considering the substance of a habeas claim, a petitioner must satisfy several
threshold conditions. Relevant here is the doctrine of procedural default which occurs when the

o

petitioner fails represent the claim to the highest state court with jurisdiction to hearlt,.and the
state courts would^ow--find^thaUhe„petitioner eatmolasseilihaUcla|nL_jSee Murray v. Carrier,
477 U.S. 478,489-91 (1986) (failure to raise claim on direct appeal); Murch v. Mottram, 409 U.S.
41, 45-46 (1972) (failure to raise claim during post-conviction); Bradley v. Davis, 551 F. Supp.
479, 481 (D. Md. 1982) (failure to seek leave to appeal denial of post-conviction relief). A
procedural default also may occur where a state court declines “to consider the merits [of a claim]
on the basis of an adequate and independentjtate procedural rule.” Yeatts v. Angelone, 166 F.3d
255,260 (4th Cir. 1999).
Procedural default bars presentation of the claim, unless the petitioner can demonstrate
“cause and actual prejudice resulting from the errors of which he complains,” or “actual
innocence.” United States v. Pettiford, 612 F.3d 270,280 (4th Cir. 2010) (citing United States v.

o

6

.

Case 8:17-cv-!

o

'5-PWG Document 19 Filed 11/C

3 Page 7 of 10

Mikalajunas, 186 F.3d 490, 492-93 (4th Cir. 1999)):Grqy v. Zook, 806 F.3d 783, 798 (4th Cir.
2015).s Cause consists of “some objective factor external to the defense [that] impeded counsel’s
efforts to raise the claim in state court at the appropriate time.” Murray, All U.S. at 488. Even if
a petitioner fails to show cause and prejudice for a procedural default, a court must still consider
whether it should reach the merits of a petitioner’s claims in order to prevent a fundamental
miscarriage ofjustice. See Schlup v. Delo, 513 U.S. 298, 314-15 (1995).
Analysis
Respondent argues Brount’s claims read as the same ones presented to the state post­
conviction court at the circuit level and are procedurally defaulted. ECF No. 9 at 16, see also ECF
No. 1 at 5; ECF No. 1-1. Respondent asserts none of these claims was presented properly to the
state post-conviction court at the appellate level. Specifically, Brount failed to file a timely
application for leave to appeal the denial of post-conviction relief under state law, thereby
rendering his claims procedurally defaulted. ECF No. 9 at 9,16. To the extent that Brount may
intend to argue in his Reply that the Court of Special Appeals improperly dismissed the
Application for Leave to Appeal as untimely (ECF No. 11 at 3-4),6 the procedural default is
unaltered. The Application for Leave to Appeal was dismissed as untimely based on a state
procedural rule (Md. Rule 8-204(b)(3)(A)), which provided an independent and adequate ground
for the dismissal. See Coleman, 501 U.S. at 731-32.

o

Habeas petitioners may use an actual innocence claim to excuse the procedural default of a separate constitutional
claim upon which they request habeas relief. See Murray, 477 U.S. at 496. “[When] a constitutional violation has
probably resulted in the conviction of one who is actually innocent, a federal habeas court may grant the writ even in
the absence of a showing of cause for the procedural default.” Id; see also Reidv, True, 349 F.3d 788, 806 (4th Cir.
2003). A petitioner who wants to use a claim of actual innocence as a gateway to raising an otherwise defaulted
constitutional claim must demonstrate by a preponderance of the evidence that a reasonable juror could not have
convicted the petitioner in light of the new evidence. See Buckner v. Polk, 453 F.3d 195, 199-200 (4th Cir. 2006).
6 Brount’s assertions, however, appear to address the question of whether his federal petition was timely filed.

7

tfcL

Case 8:17-cv-(

o

5-PWG Document 19 Filed 11/(J

) Page 8 of 10

Brount offers no argument to establish cause and prejudice to excuse the procedural
default. Even if Brount could be deemed to have shown sufficient cause, the record provides no
basis to find prejudice to excuse procedural default. The claims of ineffective assistance of trial
and appellate counsel in the context of his concerns to represent himself did not work “to his actual
and substantial disadvantage, infecting his entire trial with error of constitutional dimensions.”
Murray, 477 U.S. at 494. Further, Brount does not claim actual innocence. For these reasons, I
find the claims are procedurally defaulted.
Brount’s claim of error on direct review (the trial court erred by denying his request for
“hybrid representation”) is arguably a semantic variation of his claim of trial court error. But even
if the claim presented here were not procedurally defaulted, it provides no cause for federal habeas
relief. The Court of Special Appeals rejected Brount’s claim that the trial court erred in denying

o

his request for “hybrid representation” claim on direct appeal, stating:
Appellant argues that the circuit court erTed when it failed to allow him to represent
himself with the assistance of court appointed counsel. Appellant asserts that the
circuit court had the authority to allow hybrid representation, but that the circuit
court abused its discretion when it failed to recognize that authority and grant
appellant's request.
The State counters that Maryland generally recognizes two forms of representationself-representation and representation by counsel- and that the circuit court's denial
of appellant’s request for hybrid representation is strongly supported by Maryland
case law.
ECF No. 9-5 at 20.
* ** * * * *** * ** * * *>M> * *

“The Sixth Amendment to the United States Constitution and Article 21 of the
Maryland Declaration of Rights guarantee a right to counsel, including appointed
counsel for an indigent, in a criminal case involving incarceration.” Parren v. State,
309 Md. 260, 262-63 (1987) (quoting Rutherford v. Rutherford, 296 Md. 347
,357(1983)). Defendants also have a constitutional right to defend pro se. Leonard

o

8

\0<Z,

Case 8:17-cv-t

O

5-PWG Document 19 Filed 11/C

Page 9 of 10

v. State, 302 Md. Ill, 119(1985).The right to counsel and the right to defend pro
se are independent rights. Parren v. State, 309 Md. at 263 (citing Paretta v.
California. 422 U.5.806,819 n. 15 (1975)). "The rights are mutually exclusive and
the defendant cannot assert both simultaneously." Leonard, 302 Md. at 119. “The
two rights are disjunctive." Parren, 309 Md. at 264.
ECF No. 9-5 at 21.
The Court characterized Brount’s claims that the Circuit Court abused its discretion when
it declined his request to represent himself and have a court-appointed attorney assist him as
“disingenuous," noting he had requested “hybrid representation” on numerous occasions. ECF No.
9-5 at 22 (listing requests). Brount did not want to proceed pro se if the court declined to appoint
defense counsel pursuant to his Sixth Amendment right to representation. But, his right to
represent himself and his right to representation by counsel are disjunctive rights, and he could not
exercise both at the same time. Id.7

O

The State court decision is amply supported by the record and is not contrary to, nor does it
involve “an unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States." 28 U.S.C. § 2254(d)(1). The decision is not “based on an
unreasonable determination of the facts in light of the evidence presented in the State court
proceeding.” 28 U.S.C. § 2254(d)(2). Accordingly, even if this claim were not procedurally
defaulted, it provides no grounds to award federal relief.
CERTIFICATE OF APPEALABILITY
Rule 11(a) of the Rules Governing Section 2254 Cases in the United States District Courts
provides that the district court “must issue or deny a certificate of appealability when it enters a

o

7 The Court of Special Appeals noted too that the Circuit Court has discretion to allow a pro se defendant to avail
himself or herself of the aid or advice of counsel as the court deems appropriate, a defendant must first elect to appear
pro se, effectively waiving the right to representation under the Sixth Amendment. Even after a defendant makes such
an election, any assistance from an attorney is entirely a matter of discretion by the court. ECF No. 9-5 at 23.
9

//dt

Case 8:17-cv-0

O

i-PWG Document 19 Filed ll/0t

Page 10 of 10

final order adverse to the applicant” on a § 2254 petition. Because the accompanying Order is a
final order adverse to the applicant, Brount must receive a certificate of appealability before an
appeal may proceed. 28 U.S.C. § 2253(c)(1). Where, as is the case here, a petition is denied on
procedural grounds, the petitioner satisfies the standard with a showing that reasonable jurists
“would find it debatable whether the petition states a valid claim of the denial of a constitutional
right” and “whether the district court was correct in its procedural ruling.” Slack v. McDaniel, 529
U.S. 473,484 (2000). Because I find that Brount has not made the requisite showing, 1 decline to
issue a certificate of appealability. Brount may request a certificate from the United States Court
of Appeals for the Fourth Circuit. See Fed. R. App. P. 22(b); Lyons v. Lee, 316 F.3d 528, 532 (4th
Cir. 2003) (considering whether to grant a certificate of appealability after the district court
declined to issue one).
CONCLUSION

O

For the foregoing reasons, the Petition for Writ of Habeas Corpus is DENIED AND
DISMISSED. A certificate of appealability shall not issue. A separate Order follows.

/(tomL S?Ol7
Date

O

PaufW. Grimm
United States District Judge

10

\Z^

Case 8:17-cv-

0

i5-PWG Document20 Filed 11/

) Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
RONALD BROUNT, #1166464
a/k/a RONALD BRUNT

*
*

Petitioner
*

v

Civil Action No. PWG-17-1465
*

THE ATTORNEY GENERAL OF THE
STATE OF MARYLAND

*

Respondent

*

ORDER
For reasons stated in the foregoing Memorandum Opinion, it is this

day of

November, 2019, by the United States District Court for the District of Maryland, hereby ordered:
1. Petitioner’s “Motion to Correct” (ECF No. 15) IS GRANTED;

0

2. The Petition IS DENIED and DISMISSED;
3. A certificate of appealability SHALL NOT ISSUE;
4. The Clerk SHALL CLOSE this case; and
5. The Clerk SHALL SEND a copy of this Order and Memorandum Opinion to Petitioner
and to counsel of record.

Paul W. Grimm
United States District Judge

FILED: October 6, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7799
(8:17-cv-01465-PWG)

RONALD BROUNT, a/k/a Ronald Brunt
Petitioner - Appellant
v.
BRIAN E. FROSH, Attorney General of State of Maryland
Respondent - Appellee

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Niemeyer, Judge Harris, and
Judge Richardson.
For the Court
/s/ Patricia S. Connor. Clerk

/Append|* £

IN THE CIRCUIT COURT FOR MONTGOMERY COUNTY, MARYLAND
STATE OF MARYLAND
Case No. 119260-C

vs.
RONALD BROUNT
Defendant

MEMORANDUM OPINION AND ORDER
This matter came before the court on August 26, 2016, regarding Defendant Ronald
Brounfs Petition for Post-Conviction Relief. At that time, the court heard testimony and oral
argument, and then took the matter under advisement For the reasons stated below, the court
denies the petition.
I. Background
On October 13, 2011, Defendant was indicted on one count of first-degree rape, two
counts of first-degree sexual offense, and one count of burglary alleged to have been committed
by him in Silver Spring, in 19 81.
He appeared before the Honorable John W. Debelius for a Rule 4-215 Schedulmg
January 20, 2012, unrepresented by counsel. During this hearing, the court advised
Hearing on
Defendant of his right to counsel. The following exchange occurred.
Defendant:

To make it easier on the Court... I plan to represent myself and
invoke my rights under the Sixth Amendment to self-representation under
Reddick [sicl v. California.
And I also invoke my right to assistance of counsel for my
Court:'
Now, I’m not sure I follow you. You want to represent yourself
but you’re invoking your right of insistence [sic] of counsel for your defense? _
Defendant: Yes, sir. I want to represent myself and I want counsel to assist
me in my self-representation.
_
,
Court:
All right. Well, we have two categones. We have represented
and we have not represented. And you have an absolute right to an attorney to
represent you, but I’m not going to appoint an attorney who is not going o
represent you but is going to advise you. So those are your two choices.
What I’m going to do, though, is I’m going to postpone this a
week and let you, at least, talk with an attorney from the Public Defender s

I A -JD

/5a.
I

119260-C
Office. You do have an absolute right to waive counsel and represent yourself.
I will tell you that given the nature of these charges, I wouldn’t do that lightly.
But it’s your right and if that’s what you want to do, I’ll respect that. But we’ll
have that conversation next week.
Ronald Gottlieb, Esq. of the Office of the Public Defender entered his appearance as
counsel for Defendant on January 24, 2012. The Rule 4-215 hearing was continued until
February 3, 2012. Defendant appeared at that time before Judge Debelius, along with Mr.
Gottlieb. Regarding Defendant’s previous oral motion, Mr. Gottlieb stated:
Mr. Gottlieb: We got some, here’s the situation. We got some dates from the
Assignment Office that were given to me and Ms. Grimes. Mr. Brount has
addressed you before and needs to address you today, if he wants to, about his
request to, sort of that hybrid representation. It’s unlikely we’ll do it, because
the law pretty much says I, we, can’t do it.
During this hearing, Defendant again stated that he wanted to “invoke my right to self­
representation and my right under the Sixth Amendment to have counsel assist me in my
defense.” The Court again explained that Defendant could either represent himself or have a
Public Defender represent him, but not both. Defendant then made an oral motion asking for
self-representation and for an attorney to assist him. The Court denied this motion. The
following conversation then occurred:
Defendant: Well, it’s impossible for me to represent myself without the assistance of
counsel. So since you denied my motion, then I’m, I’m forced to, to accept some type
of representation.
Well, just so we’re clear, I’m not forcing you to do anything.
Court:
Defendant: No, I You have a choice to make.
Court:
Defendant: Yeah.
You can represent yourself or you can be represented by [Mr.
Court:
Gottlieb] through the Public Defender’s Office.
Defendant: Right. I never said you were forcing me. I said I was forced to
make that choice if I wanted representation. And since you’re not going to give
me what I asked for, then the only choice that’s available to me, if, to have that
representation, because I, it’s no way that I could represent myself, exercise my
right, effectively, without the assistance of counsel because I’m, I’m
incarcerated. I don’t have access to the legal materials that I need.
All right. Well, here’s where we are. [Mr. Gottlieb], this
Court:
gentleman who is standing next to you, is willing to represent you. So my
question to you is, do you want [Mr. Gottlieb] to represent you?
Now, we have two categories. We have yes and we have no.
And I just need to know which it is.
2

r

119260-C
Defendant: Yes, sir. I thought I answered that question.
Well, I’m, I just want to be very clear about it, because I wasn’t
Court:
hearing the yes in there. So I have heard a yes, so I will go ahead and accept
[Mr. Gottlieb’s] appearance line.
Defendant filed a pro se motion on March 23, 2012, asking the Court to
discharge his attorney and have a new attorney appointed for him. In this motion, he reiterated
his request that he be permitted to represent himself with the assistance of counsel. The
Honorable Sharon V. Burrell denied relief.
On April 24, 2012, Defendant, represented by Mr. Gottlieb, was tried before Judge
Burrell. The jury returned a verdict of guilty on all counts. On June 6, 2012, he was sentenced
to three life sentences and one twenty (20) year sentence, all to be served concurrently. He
submitted an application for a review of sentence on June 12, 2012. On July 7, 2015, a
Sentence Review Panel affirmed Judge Burrell’s sentence without a hearing.
On June 13, 2012, Defendant appealed to the Court of Special Appeals, which affirmed
his convictions on October 14, 2014. His appellate counsel was Brian M. Saccenti, Esq. The
Court of Special Appeals found that the trial court did not abuse its discretion by denying
Defendant’s oral motion for “hybrid representation.” The Court of Special Appeals also ruled
against Defendant on three other issues that are not relevant to this Petition. On March 3, 2015,
the Court of Appeals denied Defendant’s petition for writ of certiorari.
This Petition for Post Conviction Relief was filed, pro se, by Defendant on March 7,
2016. Subsequently, Matthew Lynn, Esq. entered his appearance as counsel.

II. Petition for Post Conviction Relief
Defendant alleges three errors in support of his request to have his convictions vacated:
1) he was denied his constitutional right to conduct his own defense; 2) he was denied his
constitutional right to the effective assistance of his trial counsel, Mr. Gottlieb, and 3) he was
denied his constitutional right to the effective assistance of his appellate counsel, Mr. Saccenti.
a. Denial ofRight of Self-Representation
Defendant claims that he was forced, against his will, to proceed to trial while
represented by an attorney. According to Defendant, the trial court’s acceptance of the Public
Defender’s appearance as his counsel violated his Sixth Amendment Right to conduct his own
defense. See Faretta v. California, 422 U.S. 806, 807 (1975) (a State may not constitutionally
3

no-

119260-C
“hale a person into its criminal courts and there force a lawyer upon him . . . when he insists
that he wants to conduct his own defense.”)-

Defendant asserts that he “clearly and

unequivocally” wished to represent himself and then have counsel appointed to assist him in his
own self -representation.
b. Ineffective Assistance of Trial Counsel
Defendant asserts that he was denied effective assistance of trial counsel at critical
stages of the criminal process for three reasons. See McKaskle v. Wiggins, 465 U.S. 168, 174
(1984) (“[t]he Counsel Clause itself . . . implies a right in the defendant to conduct his own
defense, with assistance at what, after all, is his, not counsel’s trial.”). First, he claims that Mr.
Gottlieb made a false and misleading representation to the court that Defendant was seeking
“hybrid representation” and that “the law pretty much says I, we can’t do it.” He claims that
Mr. Gottlieb failed to advocate for his right to self-representation in multiple hearings by
remaining silent on the issue. Finally, Defendant avers that Mr. Gottlieb failed to properly file a
Motion for New Trial based upon Defendant being denied his right to self-representation.
b. Ineffective Assistance of Appellate Counsel
Defendant alleges that he was denied the effective assistance of counsel on direct appeal
of his convictions because of Mr. Saccenti’s failure to argue that Defendant was denied his
Sixth Amendment right to conduct his own defense at trial. Instead, Mr. Saccenti’s choice to
argue for hybrid representation was unreasonable and frivolous. See Parren v. State, 309 Md.
260, 269 (1987) (holding that the right of representation by counsel and the right of self­
representation “may not be asserted simultaneously.”) According to Defendant, the reasonably
competent attorney would have raised the argument that Defendant was denied his right to
conduct his own defense, and the failure of Mr. Saccenti to do so amounted to ineffective
assistance of counsel on his first appeal as of right. See generally Evitts v. Lucey, 469 U.S. 387
(1985) (applying the standard for ineffective assistance of counsel set forth in Strickland v.
Washington, 466 U.S. 668,688 (1984), to a criminal defendant’s first appeal as of right).
III. State’s Answer to Petition
a. Court’s Denial ofHybrid Representation
The State argues that Defendant’s allegation that the trial court erred in denying his
request for self-representation is barred because such a claim is either waived or finally
litigated under UPPA by virtue of the ruling by the Court of Special Appeals on the issue of
4

119260-C
hybrid representation. MD. CODE ANN., CRIM. PROC. § 7-106 (2001). The State characterizes
what Defendant requested as hybrid representation, which was an issue finally litigated by the
Court of Special Appeals. Alternatively, the State argues that Defendant has waived his right to
self-representation.
However, the State also argues that Defendant’s claim lacks merit because he was not
entitled to have the Public Defender represent him in a standby capacity. Harris v. State, 344
Md. 497, 511 (1997) (“The participation, moreover, in a hybrid capacity, as standby counsel in
the defense of the accused” is not a “constitutional resource to which indigent defendants are
entitled.”)
b. Ineffective Assistance of Counsel
The State claims that Defendant failed to show that Mr. Gottlieb’s conduct amounted to
ineffective assistance of counsel under the standard established in Strickland. See Bowers v.
State, 320 Md. 416, 424 (1990) (holding that the petitioner bears the burden to show both
deficient performance and prejudice).

Further, the State argues that Defendant s claim is

without merit because he disingenuously asserts that Mr. Gottlieb could have reasonably
argued that he had been denied his right to self-representation. Additionally, Defendant’s
assertion that his motion would not have been denied but for Mr. Gottlieb’s statements is
groundless, unproven, and contradicted by the Court of Special Appeals decision in this case.
See Bowers, 320 Md. at 426-27 (using a “but for” test to establish prejudice).
c. Ineffective Assistance of Appellate Counsel
Similarly, the State also argues that Mr. Saccenti’s representation of Defendant on
appeal was not ineffective because Mr. Saccenti’s decision to not raise Defendant’s Sixth
Amendment claim was not unreasonable, and it is unlikely that, had the issue been raised, the
appellate court would have found in his favor. See State v. Gross, 134 Md. App. 528, 556-58
(2000) aff’d. 371 Md. 334, (2002) (clarifying the Strickland test to find that “the burden
remains with the petitioner to demonstrate prejudice at the appellate level by showing that hac
the unraised argument been raised, the appeal would probably have been successful..)

VI. Law & Analysis
a. Allegation ofError in the Denial ofSelfRepresentation
1. Issues Finally Litigated or Waived under UPPA
5

\°iCl-

119260-C
Under the Uniform Postconviction Procedure Act (“UPPA”), a criminal defendant can
begin a proceeding to set aside his sentence if the “alleged error has not been previously and
finally litigated or waived” by the defendant. Md. Code Ann., Crim. Proc. § 7-102(b) (West
2001).
An allegation of error is finally litigated when “an appellate court of the State decides
on the merits of the allegation ... on direct appeal.” Md. Code Ann., Crim. Proc. § 7-106(a)
(West 2001). Here, the court denied Defendant’s motion for hybrid representation. The Court
of Special Appeals found that the trial court did not abuse its discretion in denying the motion.
The State correctly argues that, to the extent Defendant is making the same arguments he made
on appeal, this allegation cannot be argued anew, because that issue has been finally litigated.
Defendant is barred from making such a claim again.
An allegation of error is waived when “a petitioner could have made but intelligently
and knowingly failed to make the allegation” at an appropriate time. Md. Code Ann., Crim.
Proc. § 7-106(b)(l)(i) (West 2001). “There is a rebuttable presumption that the petitioner
intelligently and knowingly failed to make the allegation” when the petitioner could have done
so on a direct appeal. Md. Code Ann., Crim. Proc. § 7-106(b)(2) (West 2001). “Failure to
make an allegation of error” waives it, unless the petitioner can show that “special
circumstances exist.” Md. Crim. Proc. Code Ann. § 7-106(b)(l)(ii).
For post-conviction purposes, the standard of whether an allegation was “intelligently
and knowingly” waived depends upon “whether the allegation is premised upon a fundamental
right or a non-fundamental right.” State v. Torres, 86 Md. App. 560, 568 (Md. Ct. Spec. App.
1990). Fundamental rights are “basic rights of a constitutional origin . . . that have been
guaranteed to a criminal defendant in order to preserve a fair trial and the reliability of the truth
determining process.” Wyche, 53 Md. App. at 406. If the right is fundamental, the State must
prove waiver, as judged under the “intelligent and knowing standard.” Torres, 86 Md. App. at
568 (quotations omitted).

If the right is non-fundamental, then waiver is determined by

“general legal principals,” such as the “failure to exercise a prior opportunity to raise an
allegation of error.” Id.
Defendant’s first allegation is premised upon his Sixth Amendment right to conduct his
own defense, which is a fundamental right. Parren, 309 Md. at 277 (citing Faretta, 466 U.S. at
815). The burden is then placed on the State to prove that the petitioner has knowingly anc
6

20*_

119260-C
intelligently waived this right. Here the State has shown that Defendant had explicitly waived
his right to self-representation in front of Judge Debelius, knowing that there was “no way” he
could represent himself without the help of an attorney. Defendant then asserted his right to
counsel, essentially waiving his right to self-representation. See Parren, 309 Md. at 264 (“The
two rights are disjunctive.”) Thus, the State has met its burden, and Defendant’s waiver has
barred him from making the allegation of error based upon his right to self-representation.
Defendant has not shown any special circumstances that would overcome this waiver.
2. Indigent Defendant’s Right to Self-Representation
If Defendant did not waive his right to self-representation, the issue of whether or not he
was denied that right would need to be considered on the merits.

Implied in the Sixth

Amendment’s provision for the assistance of counsel for criminal defendants is the “right to
self-representation.” Feretta, 422 U.S. at 819. “The right to counsel and the right to defend
pro se cannot be asserted simultaneously.” Parren, 309 Md. at 264; see also Feretta, 422 U.S.
at 852 (finding that the Sixth Amendment only “guarantee[s] a choice between representation
by counsel and the traditional practice of self-representation”). When a defendant asserts that
he wants to proceed pro se, the court must conduct a two-step inquiry to determine whether he
actually wants to do so. Snead, 286 Md. at 127-28 (citing Feretta, 422 U.S. at 834.). In doing
so, the court must determine “whether the defendant ‘clearly and unequivocally’ wants to
defend himself’ and, if so, whether he does so knowingly and intelligently. Id. (citations
\

omitted).
Here, Defendant did not clearly and unequivocally assert that he wanted to defend
himself and therefore did not properly assert his right to conduct his own defense. While he die
continually state that he wanted to represent himself or invoke his right to self-representation,
his statements were immediately preceded or followed by a desire to also have the assistance of
counsel. When the court clarified Defendant’s options, he stated that it was “impossible” for
him to represent himself without the help of an attorney, showing that he clearly understood the
complexity of his case and the necessity of counsel. When asked directly if he wanted to have
Mr. Gottlieb represent him, Defendant responded, “Yes, sir.” Even if Defendant is given the
benefit of the doubt, the ambiguity of his statements necessarily show that he did not clearly
and unequivocally assert his right to conduct his own defense. Not only did he fail to assert his
right to self-representation, he affirmatively asserted his right to representation by counsel. See
1

119260-C
Leonard v. State, 301 Md. Ill, 119 (1985) (“The rights are mutually exclusive and the
defendant cannot assert both simultaneously.”).
Ineffective Assistance of Trial Counsel
In order to succeed on an ineffective assistance of counsel claim, the defendant must
establish “(1) that counsel’s representation fell below an objective standard of reasonableness,”
Strickland, 488 U.S. at 688, and “(2) that there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been different.” Id. at
694.
Defendant has not shown that Mr. Gottlieb’s conduct did not fall below an objective
standard of reasonableness. See Harris, 303 Md. 685, 687 (1985) (noting that the burden on a
defendant to establish deficiency is “a heavy burden”). Mr. Gottlieb’s characterization of
Defendant’s request was consistent with that of both Judge Debelius and the Court of Special
Appeals, and, given the context of the statements, a more accurate depiction of what Defendant
desired. As such, Mr. Gottlieb’s decision to label the request as “hybrid representation” was
not unreasonable. Additionally, the decision not to assert Defendant’s obviously incorrect
argument both in hearings and in a Motion for a New Trial was likewise reasonable. See
Strickland, 466 U.S. at 689 (“ [A] strong presumption [exists] that counsel’s conduct falls
within the wide range of reasonable professional assistance.”) The trial judge had informed
Defendant that he could proceed pro se or with counsel and that he was not going to appoint a
standby attorney. Mr. Gottlieb knew that the trial judge had the discretion to deny a standby
attorney, and it would have been unreasonable for him to argue otherwise.
Mr. Gottlieb’s conduct also did not prejudice Defendant. Other than representation by

counsel, the only other choice for Defendant was to represent himself. Given the complexity of
a case that involved highly technical scientific evidence and an advanced knowledge of law, it
cannot be said that there was a substantial possibility that Defendant would have been
successful completely on his own. See Oken v.,State, 343 Md. 256, 284 (1994) (holding that
there must be “a substantial possibility that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different”). Mr. Gottlieb’s conduct neither fell below an
objective standard of reasonableness nor did it prejudice Defendant in any way.
a. Ineffective Assistance of Appellate Counsel

8

119260-C
Indigent criminal defendants do have the right to effective assistance of counsel on the
first appeal as of right. Evitts, 469 U.S. at 396-97. The Strickland standard in determining the
ineffective assistance of trial counsel is essentially the same standard that applies to claims of
ineffective assistance of appellate counsel. Gross, 134 Md. App. at 556 (“[T]he juridical events
to which those principles apply obviously differ somewhat depending on the operational level
being scrutinized.”).
As with his claim of ineffective assistance of trial counsel, Defendant also fails to show
under the Strickland standard that he was denied the effective assistance of appellate counsel.
Mr. Saccenti had discretion to choose whether or not to assert a Sixth Amendment violation of
Defendant’s right to conduct his own self-defense. See id. (“[S]election of which appellate
issues to raise and which to ignore is one entrusted to the strategic judgment of appellate
counsel.”). Defendant never properly asserted his right to conduct his own defense— in fact,
he had asserted his right to representation by the Public Defender—, and it was reasonable for
Mr. Saccenti to refrain from arguing that Defendant said what he obviously did not say. See id.
at 557 (“A brief that raises every colorable issue runs the risk of burying good arguments ... in
a verbal mound made up of strong and weak contentions.”) (citation omitted). Defendant had
already asserted four separate issues in his appeal; adding another obviously weak argument
could have detracted from the meritorious arguments he had. Thus, his conduct was not
unreasonable, and the court finds no prejudice.
For the reasons stated""above, it is therefore this 30th day of September, 2016, by the
Circuit Court for Montgomery County, Maryland,
ORDERED, Defendant’s request for post-conviction relief is hereby DENIED.

entered
OCT 11 2016

Op A.A JjP A i

ROBERT A. GREENBERG, Judgi
Circuit Court for Montgomery Couni

.^rkofthe Circuit Court
- : Cfomery County, Md.
\

9

IN THE

*

RONALD BROUNT,

COURT OF SPECIAL APPEALS

*

Applicant
v.
STATE OF MARYLAND,

*

OF MARYLAND

*

September Term, 2016

*

No. 2060

Respondent

(Post Conviction)
(CC# 119260)

*
*

*

*

*

*

*

*

❖

*

*

*

*

*

ORDER
On October 11, 2016, the circuit court entered an order denying post conviction
relief. Applicant filed an Application for Leave to Appeal which was docketed on
November 22, 2016. Applicant filed his Application more than 30 days after the entry of
^

the October 11, 2016 order.

The requirement in Maryland Rule 8-204(b)(2)(A) that an

application for leave to appeal be filed within thirty days after entry of judgment is
jurisdictional. Keys v. State, 195 Md. App. 19, 27-28 (2010). If the requirement is not
met, this Court does not acquire jurisdiction, and the appeal must be dismissed. Id.
4

Accordingly, it is this 3

day of January, 2017, by the Court of Special

Appeals,
ORDERED that the above-captioned application for leave to appeal be and hereby
is dismissed pursuant to Md. Rule 8-602(a)(3).
A

PETER B. KRAUSER, CHIEF JUDGE

end ix

£
Cl~

t:

*

IN THE

*

COURT OF SPECIAL APPEALS

*

OF MARYLAND

*

September Term, 2016

*

No. 2060

*

(CC# 119260)

RONALD BROUNT,
Applicant
v.
STATE OF MARYLAND,
Respondent
*

*

*

ORDER
It is this

day of January, 2017, by the Court of Special Appeals,

ORDERED that the motion for reconsideration, having been read and considered,
is denied.

JSB55SS&
Peter B. Krauser,
Chief Judge

tr

l* A I"

